 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, 

OFFICE OF JUVENILE JUSTICE AND DELINQUENCY 

                PREVENTION 

GRANT AWARDED TO CHICAGO PUBLIC SCHOOLS 

             CHICAGO, ILLINOIS 



           U.S. Department of Just ice 

         Office of the Inspector Genera l 

                  Audit Division 


          Audit Report GR-SO-14- 004 

                  May 2014 

           AUDIT OF THE OFFICE OF JUSTICE PROGRAMS,

                OFFICE OF JUVENILE JUSTICE AND

                   DELINQUENCY PREVENTION

          GRANT AWARDED TO CHICAGO PUBLIC SCHOOLS

                      CHICAGO, ILLINOIS


                            EXECUTIVE SUMMARY


        The U.S. Department of Justice (DOJ), Office of the Inspector General (OIG),
Audit Division, completed an audit of a $1,200,000 grant awarded to the Chicago
Public Schools (CPS). DOJ’s Office of Justice Programs (OJP), Office of Juvenile
Justice and Delinquency Prevention (OJJDP) awarded grant number
2009-JL-FX-0229 to CPS to support the Youth Engaged in Schools Scholars
Initiative (YES Initiative). The goal of the YES Initiative was to target 300 high-risk
8th grade students as they transitioned to 3 selected high schools and provide these
students with intensive support during their first year to improve their success rate
for graduating from high school.

       CPS is the third largest school district in the United States with 113,873
high school students during fiscal year 2012, which covered the period from July 1,
2011, to June 30, 2012. According to CPS, nearly half of its high school students
fall behind in school and drop out because of violence, poverty, pregnancy, and
other “real-life” factors. Graduation Pathways is one of CPS’s programs developed
to keep all students on-pace to earn a high school diploma and to ensure that every
student graduates from high school. According to CPS, it has a diverse student
population and, as a result, CPS established the Graduation Pathways program to
keep students on-pace to earn a high-school diploma. The Graduation Pathways
program also includes early intervention strategies to help high schools quickly
respond to the needs of 9th grade students who display early signs of at-risk
behavior.

       The DOJ grant to CPS specifically targeted incoming 9th grade students at
three high schools – Christian Fenger Academy High School, Dyett High School, and
Richard T. Crane Technical Preparatory High School. The project included an after
school transition program that: (1) addressed students’ personal, career, and
academic needs; (2) developed individual learning and career plans; (3) provided
links to students’ teachers and other school and initiative services; (4) provided
students the opportunity to participate in career-related activities; and (5) enabled
partners to address gang prevention, career development, and dropout prevention.
The award also supported dedicated transition specialists to guide, support, and
monitor freshmen and their families as they moved from 8th grade into high school
and throughout their freshmen year.

       The objective of our audit was to review performance in the following areas:
(1) program performance and accomplishments; (2) accounting and internal
controls; (3) grant drawdowns; (4) budget management and control; (5) grant
expenditures, including personnel and indirect costs; and (6) grant reporting,

                                         -i­
including federal financial reports and progress reports. We determined that
program income, property management, local match, and oversight of
sub-grantees and contractors were not applicable to this grant.

       As of April 3, 2013, the grantee had drawn down $1,004,331 and had
recorded expenditures of the same amount in its grant accounting records. We
examined CPS’s accounting records, required financial and progress reports, and
operating policies and procedures. We also tested $79,699 of the CPS’s total grant-
related expenditures. During this review, we identified several weaknesses in CPS’s
grant expenditures and grant management, as follows:

   •	 We identified indicators of supplanting related to CPS’s use of grant funds for
      credit recovery, an existing local program. Although CPS had budgeted and
      used its own funds from as early as 2009 through 2012 for this program, in
      2013 it appears that CPS used the DOJ grant funds rather than using its own
      funds that it had previously budgeted for that purpose.

   •	 The grantee did not receive official OJP approval to change the scope and
      objectives of the project. Consequently, CPS expended funds for activities
      different than described in the original grant application without express OJP
      approval.

   •	 Although the financial activity reports were filed on a timely basis, six of the
      seven progress reports were filed between 1 and 73 days late.

       Our report contains three recommendations to address the preceding issues,
which are discussed in detail in the Findings and Recommendations section of the
report. Our audit objective, scope, and methodology are discussed in Appendix I of
the report.




                                         - ii ­
                                     TABLE OF CONTENTS


INTRODUCTION ..........................................................................................1

  Background ................................................................................................ 1

  Our Audit Approach ..................................................................................... 3

FINDINGS AND RECOMMENDATIONS ..........................................................4

  Program Performance and Accomplishments................................................... 4

  Accounting and Internal Controls................................................................... 8

  Grant Drawdowns........................................................................................ 9

  Budget Management and Control .................................................................. 9

  Grant Expenditures.................................................................................... 10

  Grant Reporting ........................................................................................ 14

  Views of Responsible Officials ..................................................................... 16

  Recommendations ..................................................................................... 16

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ............................17


APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ...................... 19


APPENDIX III: AUDITEE RESPONSE .........................................................20


APPENDIX IV: OFFICE OF JUSTICE PROGRAMS RESPONSE ...................... 22


APPENDIX V: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ..................... 25

                                          INTRODUCTION

        The u.s. Department of Justice (DOJ), Office of the Inspector Genera l (OIG),
Audit Divis ion, completed an audit of a $1,200,000 gra nt awarded to the Chicago
Public Schools (CPS) . DOJ's Office of Justice Programs (OJP), Office of Juvenile
Justice and Delinquency Prevention (OJJDP) awarded grant number 2009-JL- FX­
0229 to CPS to support the Youth Engaged in Schools Sc holars Initiative (YES
Initiative) . The goa l of the YES Initiative was to target 300 high - risk 8 th grade
students as they tra nsitioned to 3 se lected high schoo ls and provide these students
with intensive support during their first year to i mp rove their success rate for
g raduating f ro m high school. As shown in Figure 1, OJJDP administe red the CPS
g rant from August 2009 to August 2013 .

                                      .
                        FIGURE 1 OJJDP GRANT AWARDED TO CPS
                           AWARD START AWARD EN D              AWARD                                2
    AWARD NU M8ER                                                                      0 8JECTIVE
                                DATE            DATE l        AM OU NT

                                                                               To provide a 1S-percent
                                                                            im provement in the on-track
                                                                               (graduation) rate among
   2009 · J L-FX-0229       08/ 0 1/ 2009 08/ 30/ 2013 $1.200,000
                                                                             prog ram participants versus
                                                                            non -participants with similar
                                                                                     risk fact ors.
  Source. Office of JustIce Pro gr ams

Background

        OJP's mission is to increase public safety and improve the administration of
justice ac ross America through innovative leadership and programs. OJP seeks to
accomplish its mission by disseminating state-of-the -art know ledge and practices
across America by providing gra nts for the implementation of these crime -fighting
strategies. To support th is mission, OJJDP assists local community endeavors to
avert and react to juvenile delinquency and victimization . OJJDP aims to improve
t he juvenile justice system and its po licies so t hat t he public is better protected,
youth and t heir fami lies are better served, and offenders are held accounta ble . The
office a lso supports many research, program, and training initiatives; develops
priorities and goals and sets po licies to guide juvenile justice issues; disseminates

        1   Th is date includes a no-cost extension approv ed by OJP.

          2 CPS offiCially requested and OJP approv ed a budget mod ification for the YES Init iativ e program
dur ing t he 2012-2013 school year to use grant funds to provide credit recovery and mentoring services to
off-track students that qualified under the existing grant t erms. However, CPS also changed t he objective
and scope of the YES Initiative by reducing the number of participating schools and focusing on services
for non-incoming freshmen students. CPS did not request approva l for this change in objectiv e and scope
in an official Grant Adjustment Notice. These approved and unapproved changes in project bu dget,
scope, and obj ective are d iscussed in the Program Perfor mance and Accomplishments section of t his
report.

                                                    - 1­
information about juvenile justice issues; and awards funding to states to support
local programming nationwide.

        CPS is the third largest school district in the United States. During fiscal
year (FY) 2012, CPS had 404,151 students enrolled, of which 113,873 were high
school students. 3 According to CPS, nearly half of its high school students fall
behind in school and drop out because of violence, poverty, pregnancy, and other
“real-life” factors. As a result, CPS established the Graduation Pathways program
to keep its diverse student population on-pace to earn a high-school diploma.
Graduation Pathways program personnel work with CPS high schools to provide
students with an array of academic services to help students stay in school and
graduate from high school. These services help CPS high school administrators
identify and assist “high-risk” students who need extra support during their
freshman year to prevent those students from dropping out of high school. In
addition, individuals from the Graduation Pathways program work with CPS high
schools to offer students flexible options for credit recovery, including evening and
virtual classes. CPS’s credit recovery program is a mechanism to assist students
who are off-pace for graduation. This program allows students to gain credits in a
variety of settings and times that best fit the needs and schedules of the students.

        CPS managed the DOJ-funded YES Initiative grant project through its
Graduation Pathways program. As previously mentioned, the goal of the YES
Initiative was to identify and assist a total of 300 incoming freshmen students who
were at risk for not graduating from high school. As described in the grant
application, the YES Initiative was designed to target 50 incoming freshmen
students at 3 CPS high schools in 2 school years. The plan included appointing
dedicated transition specialists to guide, support, and monitor the freshmen
students and their families as they moved from 8th grade into high school and
throughout their freshmen year. In addition, the YES Initiative was to provide
these students with an after school transition program that: (1) addressed the
students’ personal, career, and academic needs; (2) developed individual learning
and career plans; (3) provided links to the students’ teachers and other school and
initiative services; (4) provided students the opportunity to participate in
career-related activities; and (5) enabled partners to address gang prevention,
career development, and dropout prevention. The program, as laid out in the grant
application, did not include continued support to students after their freshmen year.

       Beginning in August 2010, CPS implemented the YES Initiative at three high
schools: (1) Christian Fenger Academy High School (Fenger), (2) Dyett High
School (Dyett), and (3) Richard T. Crane Technical Preparatory High School
(Crane). CPS selected these three high schools because they were among the
schools in greatest need in the city, with low on-track and graduation rates, high
violence and suspension rates, and large numbers of court-involved students. In
addition, these schools were rated as poor performers and placed on probation, and


       3
         CPS’s fiscal year begins on July 1st and ends on June 30th, while its school year runs from
approximately the end of August to the beginning of June.

                                                 -2 ­
CPS was working to improve these schools’ ability to provide high-quality
instruction to students.

       In FY 2013, CPS changed the scope of the project by focusing on students
from Crane and Dyett high schools that were already in the YES Initiative and
providing them with credit recovery instruction. This change in scope occurred
because these two schools were slated to be closed and were not accepting
incoming freshmen students. However, CPS did not submit to OJP an official
request to change the scope and objective of the YES Initiative. The Program
Performance and Accomplishments section of the report provides more detail about
this unapproved change in scope.

Our Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria we audit
against are contained in the OJP Financial Guide, the Code of Federal Regulations,
Office of Management and Budget (OMB) Circulars, and the award documents. We
tested the grantee’s:

   •	 Accomplishment of Grant Requirements and Objectives to determine if
      the grantee met or is capable of meeting the grant’s objectives and whether
      the grantee collected data and developed performance measures to assess
      accomplishment of the intended objectives.

   •	 Accounting and Internal Controls to determine whether the grantee had
      sufficient accounting and internal controls in place for the processing and
      payment of funds and controls were adequate to safeguard grant funds and
      ensure compliance with the terms and conditions of the grant;

   •	 Grant Drawdowns to determine whether grant drawdowns were adequately
      supported in accordance with federal requirements;

   •	 Grant Expenditures to determine the accuracy and allowability of costs
      charged to the grant;

   •	 Budget Management and Control to examine the amounts budgeted and
      the actual costs for each approved cost category and determine if the
      grantee deviated from the approved budget, and if so, if the grantee received
      the necessary approval; and

   •	 Federal Financial Reports (FFR) and Progress Reports to determine
      whether the required reports were submitted on time and accurately
      reflected grant activity.

      We also performed limited work and confirmed that CPS did not generate or
receive program income, did not purchase accountable property, was not required
to contribute any local matching funds, and did not oversee any sub-grantees or
contractors. We therefore performed no testing in these areas.

                                        -3 ­
                  FINDINGS AND RECOMMENDATIONS

      We determined that CPS fulfilled the initial goals of the grant
      program by providing transition support for over 350 at-risk
      incoming freshmen students from 3 high schools during years 1
      and 2 of the grant. However, we found that CPS did not submit its
      progress reports in a timely manner. In addition, we found that
      CPS did not have proper authorization to change the scope and
      objective of the project and expended funds for credit recovery
      services during year 3 of the grant. Credit recovery was not part of
      the original grant application, and CPS did not clearly explain the
      planned change in scope and request an official Grant Adjustment
      Notice from OJJDP, as required. Instead, CPS reported the changes
      in its progress reports, and the CPS officials thought that this
      notification method was sufficient. In addition, the grantee may
      have violated the non-supplanting requirement because it ceased
      spending its own budgeted funds for credit recovery and instead
      used grant funds for this expense. As a result, we question
      $17,728.


       We performed audit work at CPS’s main office in Chicago, Illinois, where we
interviewed key CPS personnel to obtain an understanding of the accounting
system and tested a sample of grant expenditures. We reviewed the criteria
governing grant activities, including the OJP Financial Guide, relevant OMB
Circulars, and the Code of Federal Regulations. In addition, we reviewed grant
documents, including the application, award, budgets, and financial and progress
reports.

Program Performance and Accomplishments

       In order to determine if CPS met the goals of the YES Initiative, we reviewed
the original grant application and supporting documentation. We also interviewed
CPS officials and the OJJDP Grant Manager. In addition, we reviewed the OJP
Financial Guide, which states that changes to the scope of the award require the
grantee to initiate a Grant Adjustment Notice (GAN). These modifications requiring
a GAN include changes in scope, duration, activities, or other significant areas.

        In its application for OJJDP grant funding, CPS identified that through the
YES Initiative it would target at-risk incoming 9th-grade students to assist them
during their transition to high-school and throughout their freshman year to enable
these students to stay on-track to graduate. CPS maintained that research and
district experience showed that 9th grade was the most critical and influential
juncture in high school students’ academic success and decision to stay in school.
Although CPS provided these services to 9th grade students during the first 2 years
of the initiative, during the third year of the YES Initiative CPS changed its focus to
offering credit recovery to students who were former YES Initiative participants and
beyond the 9th grade. The following sections provide the results of the OIG’s


                                        -4 ­
detailed analysis of CPS's YES Initiative performance and accomplishments and the
grantee's actions related t o changing the focus of its DOJ-funded activities.

Original Grant Application Scope and Objectives - Grant Years 1 and 2

                                                                                          th
        Through the YES Initiati ve, CPS planned t o focus on 300 high risk 9 grade
studen ts from 3 selected high schoo ls t o provide them w ith intensive 8 th to
9 th grade tran sition support t o keep them on -track during their freshman year. CPS
identified that a key predictor of a student's ability t o graduate is ascertained when
a student falls off-track during thei r fi rst yea r of high schoo l. According t o t he CPS
grant application, the primary objecti ve of the YES Initiative was to provide a 15­
percent improvement in the on -tra ck graduation rate among CPS students in t he
YES Initiati ve versus CPS students wi th similar ri sk factors that did not participate
in the program. The on-track measure indi cates wha t percentage of st udents
achieved the credits necessary during the first semester of their freshmen year to
remain on -track for graduation. To accomplish its goal, CPS hired dedicated
transition specialists to guide, support, and monitor freshmen and their families as
the students moved from 8 th grade into high school and throughout their freshmen
yea r.

       CPS provided the OIG wi th statistics for school years 2010-2011 and
2011-2012. The statisti cs showed improvements made by YES Initiati ve
participants ve rsus the non-participants at the three participating schoo ls. The
CPS-generated statistics are show n in Figure 2 bel ow. We obtained all of CPS's
data used t o comp ile these statistics, and we verified that the percentages were
correct.

      FIGURE 2 . YES INITIATIVE OUTCOMES - INCOMING FRESHMEN
                                      I Y:ASR~::;::~~~E I NON-PARTICII'ANTS        II;::~EVNET:~~T
                                     2010-2011 SCHOOL YEAR
   All Students On-Track Rate                       63% I                   31 % I             32 %
    HiQh Risk On -Track Rate                        57% I                   36% I              2 1%
                                    2011-2012 SCHOOL YEAR 4
   All Students On-Track Rate                       71%1                    69 % I              2%
    High Risk On -Track Rate                        64% I                   45 % I             19%
         Source. CPS

      CPS provided services t o 188 incom ing freshmen duri ng the 2010-2011
school year.5 According t o CPS data, of the 188 YES Initiative participants,
63 percent were on track to graduate high school, wh ile only 3 1 percent of the
364 CPS students with similar circum stances were on track t o graduate high schoo l.

        4 This percentage excludes 25 students for which CPS did not have sufficient data to analyze
the on-track rate. Of these 2S students, 12 were identified in the high-risk category; therefore, the
high-risk on -track rate excludes these students.

       5 The grant was awarded in September 2009 . Beca use the CPS begins classes in August, it
was too late for CPS to use the grant funding during the 2009-2010 school year.



                                               -5­
CPS also compared the rates of 110 and 149 YES Initiative students and
non-participating students, respectively, and found that there was a 21 percent
on-track improvement for students in the YES Initiative. In its grant application,
CPS identified that its goal for the YES Initiative was to improve the on-track
graduation rate of the YES Initiative students by 15 percent. Therefore, during the
first year of the program, the CPS statistics indicated that CPS reached its goal
because it had a 32-percent increase in the on-track rate for all YES Initiative
participants and a 21-percent increase in the on-track rate for the high-risk
freshmen program participants.

       During the second year of the YES Initiative (the 2011-2012 school year),
CPS provided services to 207 students. However, of these 207 students, only 168
were incoming freshmen because the YES Initiative services were offered to
students who were beyond the freshmen year. According to CPS data, 71 percent
of the incoming freshmen in the YES Initiative were on track to graduate in
comparison to 69 percent of non-participants. This was only a 2 percent on-track
improvement rate, which does not meet CPS’s goal of 15 percent. However, CPS
identified 59 of the 168 YES Initiative participants as high-risk students. When CPS
evaluated the percentage of these students, they found that there was a 19 percent
on-track improvement rate as compared to non-participants.

Change in Program Scope and Objectives – Grant Year 3

       In April 2012, CPS identified that it had not used all of its grant funds and
submitted a GAN to request a no-cost extension and change the project period to
end on August 30, 2013, instead of July 31, 2012. CPS also submitted a GAN in
April 2012 to modify the budget, and this budget modification GAN indicated that
CPS would use grant funds, under the existing terms of the grant, to provide credit
recovery and mentoring services to 9th and 10th grade students who were not
on-track to graduate on-time. OJP approved these GANs in May 2012 and April
2012, respectively.

       However, we found that CPS did not initiate a change in scope GAN for the
YES Initiative modifications made during the extended third year of the grant, as
required by the OJP Financial Guide. 6 During the 2012-2013 school year, CPS
changed the scope of the project to include only two high schools (Dyett and Crane)
instead of three high schools. We asked CPS officials why Fenger was excluded
from the YES Initiative program in the third year of the grant, as it was one of the
original three high schools participating in the program. CPS officials stated that
after receipt of the grant, Dyett and Crane were slated for closure and Fenger was
the only original participating high school that would continue to accept freshman
students. CPS officials held telephone conversations with the OJJDP project
manager about transitioning the program to other CPS schools that were not slated
for closure. However, CPS officials explained that based on these conversations,
they were under the impression that CPS was not allowed to work with schools
        6
           During the first 2 years of the grant, CPS did follow its plan as outlined in the grant
application and implemented the YES Initiative to incoming freshmen at Crane, Dyett, and Fenger
high schools.


                                               -6 ­
outside of the original three schools selected to participate in the program.
Therefore, instead of keeping the program running at Fenger, CPS decided to
continue to work only at Crane and Dyett – the high schools slated for closure –
because these schools would have similar structures.

      Moreover, CPS began targeting students that were beyond the 10th grade and
who were not on-track to graduate on-time by adding credit recovery classes and
mentoring services. Although CPS identified in its April 2012 budget modification
GAN that through the YES Initiative CPS would provide credit recovery services to
students, it specified that it would follow the existing provisions of the grant, which
did not include expenses for actual credit recovery classes. Under the existing
grant provisions, CPS identified that it would provide mentoring services that might
propose credit recovery activities for students. Therefore, the information provided
by CPS in the budget modification GAN did not specifically identify the change in
scope of providing more than credit recovery mentoring services, namely credit
recovery classes.

        When the OIG asked CPS officials why they did not submit a GAN to OJP for
the change in project scope, they stated that CPS provided the change in scope and
objective information to OJP through its progress reports, which they thought was a
sufficient method of notification. The OIG reviewed CPS’s progress reports and
found that in Progress Report Number 6 (submitted August 2012), CPS reported to
OJP that it was closing two of the three high schools initially included in the
program (Crane and Dyett high schools). As a result, CPS identified in the progress
report that it would not be enrolling any more freshmen in these high schools, and
CPS could not use the grant funds as originally intended. CPS described how it
would instead implement a scaled back version of the YES Initiative and focus on
demoted sophomores and putting students in a position to be on track to graduate.

       In Progress Report 7 (submitted February 2013), CPS reported its inclusion
of providing credit recovery classes to students participating in the YES Initiative.
CPS also reported in this document that it had informed OJP through a GAN that
two high schools participating in the YES Initiative were to be closed, and CPS was
not enrolling incoming freshmen for those high schools. However, our review of the
GANs did not find any mention of the two schools being closed and, therefore, not
having incoming freshmen.

       In our opinion, the information provided in the approved budget modification
and no-cost extension GANs was not sufficient for OJJDP to clearly understand the
change in objective and scope. The GANs submitted by CPS did not clearly indicate
that the program was being modified from providing transition and mentoring
services to incoming freshmen at three different schools to providing on-going
assistance (including credit recovery classes) to existing program participants
beyond their freshman year from only two of the original three participating
schools. Although CPS provided more in-depth information to OJP through its
Progress Reports, this does not follow the requirement of the OJP Financial Guide to
submit a GAN. The OJJDP Grant Manager verified that the information submitted




                                        -7 ­
by CPS in the Progress Reports and budget modification GAN was not sufficient
notification for the change in scope and objective of the project.

       We also found that CPS’s submissions to OJP did not provide any
performance goals for the newly offered services or the number of students who
CPS expected to aid during the third year of the YES Initiative. The justifications
also did not describe the totality of the services that would be provided to the
existing students. As a result, we cannot make a determination if CPS’s
accomplishments were adequate for the third year of the grant.

      Therefore, to be in compliance with the OJP Financial Guide, we believe that
CPS should have submitted a GAN to request a change in scope and objective for
the additional third year. CPS should have also provided OJJDP with new
performance measures and formal statistical data on the number of students who
received credit recovery and the students’ related on-track rates because these
were the added services for the third year.

Accounting and Internal Controls

       According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system should
ensure, among other things, the identification and accounting for receipt and
disposition of all funds, funds applied to each budget category included in the
approved award, expenditures governed by any special and general provisions, and
non-federal matching contributions.

       We reviewed CPS’s financial management system and its policies and
procedures to assess CPS’s risk of non-compliance with laws, regulations,
guidelines, and terms and conditions of the grant. To further assess risk, we
obtained an understanding of the reporting process, examined various grant
accounting records and reports prepared by CPS, and interviewed CPS personnel
regarding grant expenditures.

Financial Management System

       The OJP Financial Guide requires grantees to establish and maintain a system
of accounting and internal controls that adequately identifies and classifies grant
costs. The system must include controls to ensure that funds and other resources
are used optimally and expenditures of funds are in conformance with the general
and special conditions applicable to the recipient. Further, the OJP Financial Guide
states that grantees should establish and maintain program accounts that will
enable, on an individual basis, the separate identification and accounting of the
receipt and disposition of all funds and the application of all funds to each budget
category included within the approved award.

      We conducted a limited review of CPS’s financial management system. Our
review included interviewing personnel and observing accounting activities and


                                        -8 ­
processes. The review indicated t hat the g rantee properly classified grant costs by
esta blishing and maintaining a unique grant identifier for aU g rant-related
accounting activit ies . In addition , the intern al operating procedures ap peared to
adequately identify established controls for separation of duties, system security,
and multiple levels of ap proval for payme nts.

Prior Audits

       According to the special conditions of the agreement, the OJP Financial
Guide, and OMB Circular A-133, Audits of States, Local Governments and Non-Profit
Orga nizations ( OMB Circular A-133), any organization that expends $500 ,000 or
more in federal funds in the organization's fiscal year is required to have a single
organization-wide audit conducted. As shown in Figure 3, CPS's expenditures of
federal funds exceeded $ 500 ,000 in FYs 2010, 2011 , and 2012.

               FIGURE 3. CPS EXPENDITURES OF FEDERAL FUNDS
                           FYs 2010 THROUGH 2013
               FISCAL YEAR                    2010         2011            2012
        otal Federal Expend itures   $ 1.859,845, 13   $2,427,120 ,698 $1 ,817,040,30
                    ,
        Source: CPS s Sing le Audit Reports

       CPS had single audits conducted by an independent accounting firm for each
of these fiscal years in acco rdance with the provisions of OMB Circular A-133. We
found that these reports included 17 financial statement and federal award find ings.
Of the 17 fi ndings, only 1 finding , which was a re peat deficiency that identified that
CPS was not submitting requi red reports on-time, had a n impact on our audit. We
expanded our testing in this area during the course of our audit work, in part, as a
result of t his single audit find ing. Our discussion of this find i ng is contained in t he
Grant Reporting section of this re po rt.

Grant Drawdowns

        We reviewed CPS's process for requesting reimbursement from OJP fo r its
g rant-related costs to ensure that the requests were adequately supported by
official accounting records and were in acco rdance with federal requirements. T he
OJP Financial Guide states that " Recip ient organizations should request funds based
upon immediate disbursement / reimbursement requirements." CPS's Grant
Accountant stated t hat drawdowns were based on actual expenditures. In our
analysis of total drawdowns and CPS's accounting records , we determined t hat as of
April 3, 2013, CPS requested drawdowns that equaled total expenditures in the
accounting records. T herefore, we concluded that CPS was in compliance with
federal drawdown req uirements.

Budget Management and Control

       According to the OJP Financial Guide, a grantee may transfer funds between
app roved budget categories without OJP approval if t he total transfers are


                                               -9 ­
10 percent or less t ha n t he aw ard amou nt. Request s for t ra nsfers of f unds bet wee n
bu dget cat egories of ove r 10 percent m ust be su bmitted t o OJP for ap prova l. We
found t hat CPS did not exceed t he 10 - percent threshold.

Grant Expenditures

      Th e OJP Financial Guid e requires t ha t ex pend itures be accounted for an d
adequ at ely supported. CPS's approved gran t budget is det ail ed in Fi gu re 4.

          FIGURE 4. CPS's APPROVED GRANT BUDGET AMOUNTS AND 

                     DESCRIPTION OF EXPENDITURES 

                             ApPR OVED
     COST CATEGORY              REVISED              DESCRIPTION OF PLANNED EX PENDITURES
                                BUDGET

                                               Sa lary support f or 1 YES I nitiat ive Proj ect
                                               Coord inator; 3 Stu dent Engagem ent Specialist s;
 Personnel                       $865,073      1 Proj ect Di rector; and school- based st aff
                                               inclu ding, inst ructors, counselors, social wor kers,
                                               and psychologist s
 Fringe Benefit s                 188,9 66     St anda rd f ringe benefi ts
                                               Travel rei m bu rsement for t he YES I nitiative
 Travel                            15,860
                                               Proj ect Coordinator
 Supplies                                 0    None planned

 Contract/ Consu ltant                    0    None planned

                                               Cu rr iculu m an d train ings, activit ies and m aterials,
 Other                            11 3 , 183   su pplies, assessm ents, professiona l developm ent,
                                               and st udent sti pen ds

 Equi pm ent                              0    None planned

 Const ruction                            0    None planned
                                               Overa ll organ izational costs not specifi c t o the
 I ndi rect Cost s                 16,9 18
                                               grant
 FEDERAL FUNDS              $1,200,000
 LOCAL MATCH                $             0
 TOTAL PROJECT
                            $1,200,000
 COSTS
  Source. Office of Just Ice Programs and CPS


         Of t he $ 1. 2 m illion budget, 88 percent was associated with perso nne l cost s,
in cl uding t he f u ll sa laries of t he YES I nit iative Project Coo rdi nat or and Student
Engagemen t Spec iali st s, as well as ho url y payments to schoo l st aff for services
related to the YES I nitiati ve . I n add iti on, we foun d t hat CPS u sed t he grant fu nds
t o pay for t rave l expen ses for t he YES I nitiati ve Project Coord ina t or, life skills
t ra ining curriculum , student st ipends for workforce t ra inings, act ivit ies an d stude nt


                                                 - 10 ­
materials for projects, office supplies, student assessments, and professional
development for 25 adults.

Direct Expenditures

       We reviewed grant expenditures to determine if costs charged to the award
were allowable, supported, and properly allocated in compliance with grant
requirements. Of the total $1,004,331 in expenses billed to the grant as of
April 3, 2013, we selected for testing 25 transactions that totaled $79,699. These
transactions were judgmentally selected from CPS’s general ledger, and the
expenses included 10 payroll transactions, 5 fringe benefit transactions, and
10 transactions from the travel and other categories. We obtained and reviewed
the invoices and available supporting documentation for the 25 expenditures
charged to the grant. The tested expenditures associated with the YES Initiative
were found to be accurate, supported, allowable, and allocable to the grant under
federal rules, regulations, and guidelines with one minor exception discussed below.

      We found $493 in unsupported costs associated with travel reimbursements.
CPS did not maintain adequate documentation for car fare that was reimbursed to
the YES Initiative Project Coordinator under the travel account. During our audit,
CPS provided receipts for $455 of the total $493 for this expenditure. However, the
sample transaction was dated October 6, 2011, and CPS provided us with receipts
that were dated: September 2010, October 2010, November 2010, and
August 2011. In addition, we found that none of the receipts were signed and
dated by the YES Initiative Project Coordinator. Moreover, the receipts were not
approved by the Program Director, the Day-to-Day Operations Administrator, or the
Chief Officer. CPS could not provide us with any additional supporting
documentation for these expenditures because CPS’s accounting department only
maintains documents for expenses over $500.

      All other sample transactions that the OIG tested were adequately supported.
We are not making a recommendation regarding the $493 in unsupported costs
because the amount of the exception was immaterial.

Indirect Cost Rate

       We reviewed the CPS indirect cost documents included with the grant
application. According to the indirect cost rate included with the grant application,
the approved indirect cost rate was 1.43 percent of grant expenditures. We verified
that CPS charged the correct indirect cost amount to the grant.

Supplanting

       The OJP Financial Guide requires that grantees must use federal funds to
supplement existing state and local funds for program activities and must not
supplant funds that have been appropriated for the same purpose. During our
audit, we reviewed CPS’s budgets for the YES Initiative high schools to identify the
potential for supplanting.


                                       - 11 ­
       We found that CPS offered credit recovery to all of its students through the
Graduation Pathways program and used grant funds in FY 2013 to provide
additional credit recovery options to YES Initiative students at Dyett and Crane high
schools. CPS did not expend DOJ grant funds on credit recovery classes at Fenger
during the life of this grant.

       CPS requires each of its schools to set their own budgets, which could include
credit recovery classes. We reviewed the budgets for Dyett and Crane high schools
to determine if CPS spent the full amounts planned for credit recovery classes
during FYs 2009 through 2013, and this information is detailed in Figure 5.




                                       - 12 ­
                        FIGURE 5. SUPPLANTING INDICATORS 

                            CREDIT RECOVERY ANALYSIS' 

                                                           DVETT         CRANE        TOTAL

 FY 2009
 2009 CPS Cred it Recovery Budget                        $180,196        $73,334     $253,530
 Cred it Recovery Expenditures - CPS Fund s               154,9 40         76,007     230,948
 Unspent CPS Funding for Credit Recovery                   25,256         (2,674 )     22,582
 DO] Grant Funds Spent for Cred it Recovery                      0              0           0
 FY 2010
 2010 CPS Cred it Recovery Budget                          $72,3 19      $86,42 1    $158,740
 Cred it Recovery Expenditures - CPS Fund s                $72,3 19       86,421      158,7 4 0
 Unspent CPS Funding for Credit Recovery                          0            0              0
 DO] Grant Funds Spent for Cred it Recovery                       0            0              0
 FY 2011
 2011 CPS Cred it Recovery Budget                          $29,560       $40 ,830     $70,390
 Cred it Recovery Expenditures - CPS Fund s                 29,631        40 ,847      70,478
 Unspent CPS Funding for Credit Recovery                       ( 71 )        ( 17)       (88)
 DO] Grant Funds Spen t for Cred it Recovery                      0              0          0
 Questioned Costs                                                $0             $0         $0
 FY 2012
 2012 CPS Cred it Recovery Budget                           $3,529       $2 1, 137    $24 ,666
 Cred it Recovery Expenditures - CPS Fund s                  3,533        21,137       24,670
 Unspent CPS Funding for Credit Recovery                        (4 )             0          (4 )
 DO] Grant Funds Spent for Cred it Recovery                       0              0            0
 Questioned Costs                                                $0             $0           $0
 FY 2013
 2013 CPS Cred it Recovery Budget                          $38,350      $ 15,2 18     $53,568
 Cred it Recovery Expenditures - CPS Fund s                 35,840              0      35,840
 Unspent CPS Funding for Credit Recovery                     2,510        15,2 18      17,728
 DO] Grant Funds Spent for Cred it Recovery                 15,0 15       25,554       40 ,569
 Questioned Costs                                           $2,510      $15,218       $17,728
    Source .   cps

        Betwee n FYs 2009 and 2012, CPS budgeted betwee n approximately $24,000
and $250,000 of its ow n funds on credi t recovery instruction for Dyett and Cra ne
high schools, combined . Expend itures ove r this time period were between about
$24,000 and $230,000 in CPS funds. CPS did not spend any DO] funding on cred it
recovery during t his t i me period, and CPS gradually reduced the amount spen t on
cred it recovery each yea r fo llowing the award of the grant in 2009.


      7   The exact amounts may be greater or less than the amounts shown due to rounding.


                                              - 13 ­
       For FY 2013, CPS budgeted a combined total of $53,568 at Dyett and Crane
high schools for credit recovery instruction and only spent $35,840, leaving a
balance of $17,728 in available local funds. At the same time, CPS charged the
DOJ grant more than $40,000 for credit recovery instruction. Although CPS
increased the schools’ budgets for credit recovery costs by over $28,000 between
FYs 2012 and 2013, CPS did not spend the additional budgeted amount and used
DOJ grant funds to pay for credit recovery instruction. This use of grant funds for
credit recovery classes in 2013 (the third year of the grant and during the
extension period) is one of the changes that CPS made to its grant scope and
objectives that was not clearly communicated to or approved by OJP. As a result,
we question the unspent CPS funds of $17,728 because it appears that CPS used
DOJ funds rather than its own that it had budgeted and were available for this
purpose.

        We brought this issue to the attention of CPS officials. According to CPS
accounting data, Dyett’s adjusted FY 2013 budget for credit recovery was $38,350
and Dyett spent $35,840, which leaves a balance of $2,510 of unspent funds. CPS
officials explained that the unspent funds represent the difference between the
estimated and actual hourly rate for the credit recovery teacher, which was not
enough to fund an extra teaching position.

       CPS officials also stated that Crane’s FY 2013 budget included $15,218 for
summer school. However, these officials explained that the high school was closed
for the summer due to construction, and Crane was unable to offer summer school
credit recovery classes. As a result, Crane did not spend the budgeted $15,218 for
credit recovery costs. Nevertheless, we believe CPS should have expended its own
budgeted funds for credit recovery costs at Crane and Dyett prior to charging the
grant for these expenditures.

      In conclusion, we question the unspent CPS funds of $17,728, because CPS
instead used its grant funds before exhausting its own funds budgeted for credit
recovery purposes. Because CPS funds were available, it appears the grant funds
were not used to supplement the CPS budget, as intended by the grant award
terms and conditions.

Grant Reporting

       The special conditions of the grant require that CPS comply with
administrative and financial requirements outlined in the OJP Financial Guide and
the requirements of OMB Circular A-133. The OJP Financial Guide requires that
grantees submit both financial and program progress reports to inform awarding
agencies on the status of each award. Federal Financial Reports (FFRs) should
detail the actual expenditures incurred for each quarterly reporting period, while
progress reports should be submitted semi-annually and describe the activities,
obstacles, and achievements of the project supported by each award.




                                       - 14 ­
Federal Financial Reports

       The OJP Financia l Guide states that FFRs are due within 30 days afte r the end
of the calendar q ua rter. We reviewed the la st fo ur quarters for w hich a FFR was
required and determined that all of these repo rts were submitted w ithin the
required timeframe.

       In addition, we tested the last four FFRs submitted by CPS that were
submitted at the time of the OIG's on -site wo r k and found t hat they accurately
reflected the grant-funded expe nditures reco rded in CPS's accounting records.

Progress Reports

       Accord ing to the OJP Finan cial Guide, Catego r ical Assistan ce Progress Reports
are due semi -annually o n January 30 and Jul y 30 for the life of the grant. In
additio n, OJJDP requires the grant award recipient t o include its Performance Data
                                          8
Report w ith the OJP Pro gress Report. Incl uded in the Pe rformance Data Report a re
items such as the numbers and pe rcentages of: ( 1) p ro grams, (2) you th and/ or
families served, (3) p rogram staff co mpleting training, ( 4 ) you t h and/ or families
complet i ng the program requirements, ( 5 ) school attendance, (6) grade point
average, (7) yo uth sati sfied wi th t he program, (8) staff satisfied with the program,
(9) you t h w ho offend, and ( 10) you th w ho ar e victimized.

      We reviewed the last four requ ired progress reports at the t ime of on -site
audit work and fou nd that CPS submi tted all of these reports late. As a resu lt, we
reviewed all of the progress repo rts on file at the start of the audit and found that
CPS su bmitted six of the seve n p rogress reports between 1 and 73 days late .
Consequently, OJP withheld the grantee's funds six times throughout our review
period until the reports had been filed.

                              .
                 FIGURE 6 TIMELINESS OF CPS PROGRESS REPORTS
        REI'ORT                                                               DATE             DAYS
                             REPORT PERIOD                 DUE DATE
           No.                                                              SUBMITTED          LATE
            1         08/ 01/ 2009 t o 12/ 3 1/ 2009      0 1/ 30/ 20 10    04/ 13/ 20 10       73
            2         0 1/ 01/ 20 10 t o 06/ 30/ 2010     07/ 30/ 2010      10/ 01/ 20 10       63
            3         07/ 01/ 20 10 t o 12/ 3 1/ 2010     0 1/ 30/ 20 11    0 1/ 25/ 20 11       0
            4         0 1/ 01/ 20 11 t o 06/ 30/ 2011     07/ 30/ 2011      08/ 14/ 20 11       15
            5         07/ 01/ 20 11 t o 12/ 3 1/ 2011     0 1/ 30/ 20 12    0 1/ 31/ 20 12       1
            6         0 1/ 01/ 20 12 t o 06/ 30/ 2012     07/ 30/ 2012      08/ 28/ 20 12       29
            7         07/ 01/ 20 12 t o 12/ 3 1/ 2012     0 1/ 30/ 20 13    02/ 22/ 20 13       23
        Source . Office of Justice Programs and CPS




         6 To fulfill its responsibilities under the Governm ent Perfo rmanc e and Resu lts Act (GPRA) ,
P.L. 103-62, OJJDP requires grantees to identify, collect, and submit performance data about t he ir
g rants utilizing the OJJDP Performance Data Report.


                                                  - 15
        According to CPS officials, the late submissions were caused by difficulties
they experienced with submitting information through OJP’s electronic system. CPS
officials asserted that when submitting the progress reports, the OJJDP Data
Performance Report would not always attach properly, and these officials would
only find out that their submission was incomplete when OJP withheld funds. We
believe that OJP should ensure that CPS implements formal procedures to ensure
required reports are submitted in a timely manner.

Reliability of Progress Report Data

        To test the reliability of progress report data, we reviewed the two most
recent CPS progress reports and OJJDP performance data reports that were
available at the time of on-site audit work. We reconciled the data within the
performance data and progress reports with explanations from CPS officials. Our
review of progress reports dated August 28, 2012, and February 22, 2013,
disclosed that CPS provided services to at-risk freshmen students from
January 2012 through June 2012 but did not provide services to any new incoming
freshmen students from July 2012 through December 2012. This occurred
because, as previously mentioned, two of the three schools chosen for the project
(Dyett and Crane) were slated to be closed and did not have any incoming
freshmen. As previously noted in the Program Performance and Accomplishments
section, CPS chose to change the scope of the project in its third year by focusing
on students from Crane and Dyett high schools that were already in the YES
Initiative and providing them with credit recovery instruction as they progressed
through their sophomore and junior years. As previously noted, CPS provided
documentation to support the data submitted to OJP, and we were able to reconcile
this information to the reports.

Views of Responsible Officials

       We discussed the results of our review with grantee officials throughout the
audit and at a formal exit conference and have included their comments as
appropriate.

Recommendations

      We recommend that OJP:

1.	   Require the CPS to submit a GAN that specifically identifies the change in the
      scope and objective of the grant for the third year and provide OJP with
      accomplishments related to the modified activities.

2.	   Remedy the $17,728 in questioned costs related to the use of DOJ grant
      funds, rather than budgeted CPS funds, for credit recovery classes.

3.	   Ensure that the grantee implements procedures to submit progress reports in
      a timely manner.




                                       - 16 ­
                                                                     APPENDIX I


               OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of this audit was to determine whether reimbursements claimed
for costs under the grant were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the grant, and
to determine program performance and accomplishments.

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

        Our audit concentrated on, but was not limited to, the inception of the grant
on September 16, 2009, through April 23, 2013. This was an audit of grant
number 2009-JL-FX-0229 awarded to the Chicago Public Schools of Chicago,
Illinois, (CPS), for $1,200,000. In conducting our audit, we reviewed Federal
Financial Reports and progress reports and performed testing of grant
expenditures, including reviewing supporting accounting records. We judgmentally
selected a sample of expenditures, along with a review of internal controls and
procedures for the grant that we audited. Judgmental sampling design was applied
to obtain broad exposure to numerous facets of the grant reviewed, such as dollar
amounts, expenditure category, and risk. This non-statistical sample design does
not allow for projection of the test results to all grant expenditures or internal
controls and procedures. In total, the grantee had drawn down and expended
$1,004,331 as of April 3, 2013. We judgmentally selected 25 transactions, which
included 10 payroll transactions, 5 fringe benefit transactions, and 10 transactions
from the travel and other categories. These transactions totaled $79,699.

       The objective of our audit was to review performance in the following areas:
(1) program performance and accomplishments; (2) accounting and internal control
environment; (3) grant drawdowns; (4) budget management and control; (5)
grant expenditures, including personnel and indirect costs; and (6) federal financial
reports and progress reports. We determined that program income, property
management, local matching costs, and the monitoring of sub-grantees and
contractors were not applicable to this grant.

        We performed limited testing of source documents to assess the timeliness
and accuracy of FFRs, reimbursement requests, expenditures, and progress
reports; evaluated performance to grant objectives; and reviewed the grant-related
internal controls over the financial management system. We tested invoices as of
April 18, 2013. However, we did not test the reliability of the financial
management system as a whole and reliance on computer-based data was not
significant to our objective. We reviewed the grantee’s Single Audit Reports, which
were prepared under the provisions of Office of Management and Budget
Circular A-133. We reviewed the independent auditor’s assessments and found one
noncompliance issue that was directly related to CPS programs and affected our


                                        - 17 ­
                                                                    APPENDIX I

audit. As a result, we expanded our testing to 100 percent in the area of reporting
to check for timeliness deficiencies.




                                       - 18 ­
                                                                               APPENDIX II


                SCHEDULE OF DOLLAR-RELATED FINDINGS


Description                                                    Amount               Page

Questioned Costs 9

   Unspent CPS funds
   for Credit Recovery Instruction                              $17,728              13-14


NET QUESTIONED COSTS……………………………… $17,728



TOTAL NET DOLLAR RELATED FINDINGS………… $17,728





        9
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements; are not supported by adequate documentation at the time of the audit; or
are unnecessary or unreasonable.


                                              - 19 ­
                                                                                                APPENDIX III




                             AUDITEE RESPONSE




April 16, 2014

Carol S. Taraszka
Regional Audit Manager
Chicago Regional Audit Office
Office of the Inspector General
U.S. Department or Justice
500 West Madison Street, Suite 1121
Chicago, Illinois 60661

Dear Mrs. Taraszka,
   Chicago Public Schools (cr S) has reviewed the Audit oflhe Office of Juvenile
   Jll.'ltice and Delinquency Grant and agrees with the recommcndations regarding the
   submission of a new GAN and process changes to ensure timely submission of
   performance reports. We re~pectfully dili<lgree with the reconunendation regarding
   the qUC.'ltioned COSL~ related to the use of grant funds for credit recovery. Below is the
   specific response to each Audit Report recommendation.


   Recommendation I: Submit II Revised CAN
   CPS will submit a GAN that specifically identifies the change in the scope and
   objective of the grant and providc OJP with accomplislunenls related to the modified
   activities. The original scope of the project included providing supports to incoming
   Freslnncn. However, during year three of the grant, two of the participating schools
   were being phased out as part of the school closing process. As a result, the schools
   did not have any incoming Freshmen to serve during year three of the grant. In
   consultation with the Federal Project Officer, CPS determined to use the grant funds
   in year 3 of/he grant to provided Credit Recovery to upperclassmen because there
   were no Freshmen to serve. While II revised GAN was not submitted, CPS did
   discuss the change with the Federal Project Officer and included the progres.~ on the
   changes in our semi-annual progress reports. l be fonner Federal l'rojcc! Officer is
   no longcr assigned to the Grant. CPS is working to identify the new OJI' oontnct for
   the grant and wHl work with this individual to complete a GAN for the scope of
   services provided in year three of the grant.


   Recommendation 2: Remedy S17,728 in          Qu~lioned    Costs
   CPS is not in agreement with the questioned costs. As explained in the audit report,
   there were two factors that contributed to spending grant funds before expending all
   or CPS's budgeted funds on Credit Recovery. The first is the remaining $2,510 of




                                               - 20 ­
                                                                             APPENDIX III





unspent funds at Dyelt. The unspent funds arc the result of a difference between the
projected and actual cost of the Credit Recovery instructor. We could not use the
$2,510 of WlSpcnt budget at Dyett because it was not enough funding to pay for a
credit recovery teacher for the YES program.
The $15,218 in unspent budget lit Crane was the result of the school not
implementing summer school due to construction during the summer. Due to funding
restrictions it was not possible to use the unspent budget of $15,218 at Crane with the
:rome intent as Credit Recovery for the YES program. The unspent funds at Crane
were federal credit recovery dollars that can only be used to provide instruction to
students who had failed a course. CPS is not allowed to use the funds to allow
students taking the course for the first time to recover credits. The intent of the YES
program was to provide the credit recovery courses to both studcnts who had failed
the course and students taking the course for the first time.
We understand c.onfusion the unspent budget generated. We will ensure in the future
that we endeavor 10 realign budgets and reass ign funds when a simitar situation arises.


R ecommendation 3: Su bmit P rogress Reports in a Timely Ma nner
The CPS Project Team has implemented process changes to ensure all grant reporting
is submitted on-time for future gmnts. This includes ensuring proper training to all
Project Mangers regarding the reporting requirements and deadlines.


If you have any questions regarding this response, please contact Molly Burke at
(773) 553-2937 or roeburke@cps,edu.


Sincerely,



p~~,+--
Chief Financia l Officer




                                   - 21 ­
                                                                                         APPENDIX IV




       OFFICE OF JUSTICE PROGRAMS RESPONSE
                                                   u.s. D~partment of J ustice
                                                   Office of Justice Programs

                                                  Office ofA.udil. Assessmenl. and Management



                                                  w~       D.c.   M5)1

     APR 2 \   201~



MEMORANDUM TO:                Carol S. Taraszkn
                              Regional Audit Manager
                              Chicago Regional Audit Office
                              Office oflhe Inspector General


FROM:                       ~o1~~
                              Acting Director

SUBJECT:                      Response to the Draft Audit Report, Audil ofthe Office of Justice
                              Programs. Office ofJuvenile Justice and Delinquency Prevention.
                              Grant Awarded to the Chicago Public Schools.
                              Chicago. Illinois

lhis memorandum is in reference to your correspondence, dated March 27, 201 4, transmitting
the above-referenced draft audit report for the Chicago Public Schools (CPS). We consider the
subject report resolved and request wri tten acceptance o(this action from your office .

The draft report contains three recommendations and 517,728 in q uestioned costs. The
following is the Office of Justice Programs' (OJP) analysis orlbe draft audit report
recommendations. For ease o f review, the recommendations are restated in bold and are
fo llowed by our response.

1.     We recommend thllt O.Jr require the CPS to submit a GAN that specifi cally
       identifies the change in the scope a nd objective of the grant (or the tbird year a nd
       provide OJp with aeeomplj~hments related to the modified activities.

       OlP agrees with the recommendation. We will coordinate with the CPS to request that
       they submit a Grant Adjustment Notice (GAN) for grant number 2009-lL-FX.{)229,
       which specifi call y identifies the change in project scope and objectives for the third year
       of the gr.tnt period. We will also coordinate with CPS to obtain a list of accomplishments
       associated with the modified activities.




                                              - 22 ­
                                                                                        APPENDIX IV





2.     We reco mmend that OJP remedy the S17.72K in questioned costs related to the use
       of DOJ grant funds, rather th an budgeted CPS fund s, for credit recovery classes.

       OlP agrees with the recommendation. We will coordinate with the CPS to remedy the
       $17,728 in qucstioned costs ,-elated 10 the use of U.S. Department of Justice grant funds
       for credit recovery classes.

J.     We recommend th at OJP ens ure that the grllnlce implements procedures to submit
       progrCllll re ports in III timely man ner.

       OIP agrees with the recommendation. We will coord inate with the CPS to obtain a copy
       of policies and procedures developed and implemented to ensure that future semi·annual
       progress re ports are submitted in a timely manner.

We appreciate the opportunity to review and eomulent on the draft audit report. If you have any
questions or require additional infonnalion, please contact Jeffery A. Baley, Deputy Director,
Audit and Review Division, on (202) 616--2936.

ee:    Jeffery A. Haley
       J)cputy Din..'Ctor, Audit and Review Division
       Office of Audit, Assessment, and Management

       Robert Listcnbce
       Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Chryl Jones
       Deputy Administrator for Programs
       Office of Juvenile Justice and Delinquency Preve ntion

       Amy Callaghan
       Speeinl Assistant
       Office of Juvenile Justice and Delinquency Prevcntion

       Eric Stansbury
       Grant Program Specialist
       Office of Juvenile Justice and Delinquency Prevention

       Leigh A. Benda
       Chief Financial Officer

       Christal McNeil-Wright
       Associate Chief Financial Officer
       Grants Financial Management Division
       Office of the Chief Financial Officcr




                                             - 23 ­
                                                    APPENDIX IV





cc:   Jerry Canty
      Assistant Chief Financial Officer
      Grants Financial Management Division
      Office of the Chief Financial Officer

      Lucy Mungle
      Manager, Evaluation and Oversight Brandl
      Grants Financial Management Division
      Office of the Chief Financial Officer

      Richard P. 'Ibeis
      Assistant Director, Audit Liaison Group
      Intcrnal Review and Evaluation Office
      Justice Management Division

      OJP Executive Secretariat
      Control Number 11'20140401140828




                                           - 24 ­
                                                                    APPENDIX V



                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS

                  NECESSARY TO CLOSE THE REPORT


The OIG provided a draft of this audit report to the Chicago Public Schools (CPS)
and the Office of Justice Programs (OJP). CPS’s response is incorporated as
Appendix III of this final report, and OJP’s response is incorporated as Appendix IV.
The following provides the OIG analysis of the response and summary of actions
necessary to close the report.

Recommendation:

1.	   Require CPS to submit a GAN that specifically identifies the change in
      the scope and objective of the grant for the third year and provide
      OJP with accomplishments related to the modified activities.

      Resolved. Both CPS and OJP concurred with our recommendation to require
      CPS to submit a Grant Adjustment Notice (GAN) that specifically identifies
      the change in the scope and objective of the grant for the third year and
      provides OJP with accomplishments related to the modified activities. In its
      response, CPS stated it will submit a GAN that specifically identifies the
      change in the scope and objective of the grant and provide OJP with
      accomplishments related to the modified activities.

      This recommendation can be closed when OJP provides the OIG with
      evidence that CPS submitted and OJP approved a GAN and accomplishments
      reports for the grant project scope changes.

2.	   Remedy the $17,728 in questioned costs related to the use of DOJ
      grant funds, rather than budgeted CPS funds, for credit recovery
      classes.

      Resolved. OJP agreed with the OIG recommendation to remedy the $17,728
      in questioned costs related to the use of DOJ grant funds, rather than
      budgeted CPS funds, for credit recovery classes. CPS did not agree with the
      questioned costs related to this recommendation.

      In CPS’s response, it reiterated what officials stated during the audit - that
      CPS could not use the $2,510 in unspent budgeted funds at Dyett because
      that amount was not enough funding to pay for a credit recovery teacher for
      the YES Initiative. Moreover, CPS stated that it did not use the $15,218 in
      unspent budgeted funds at Crane because the funding was intended for
      summer school credit recovery that did not occur.

      While the OIG understands that specific activities within the general credit
      recovery area may not have occurred at the two schools, it remains that the



                                       - 25 ­
                                                                   APPENDIX V


      CPS budget for each school allocated dollars for credit recovery
      activities. Therefore, we believe that these budgeted funds should have been
      expended prior to expending federal funds for the same purpose. Further, as
      noted in the report and addressed in recommendation number 1, the audited
      federal grant was not awarded for the purpose of providing credit recovery
      courses, but rather for the purpose of offering services to certain high-risk
      9th grade students to keep them on track to graduate high school. CPS did
      not identify the change in scope to offer credit recovery courses until the
      third year of the grant. Moreover, when CPS identified this change of scope,
      CPS intended to use DOJ grant funds to offer credit recovery courses for all
      students at the schools, not only the grant project participants. Even though
      CPS was unable to offer summer school to students at Crane or pay for an
      additional credit recovery teacher at Dyett, CPS should have used grant
      funds only to supplement the original budgeted funds allocated for credit
      recovery activities.

      This recommendation can be closed when OJP provides the OIG with
      evidence that CPS has remedied the $17,728 in questioned costs.

3.	   Ensure that the grantee implements procedures to submit progress
      reports in a timely manner.

      Resolved. OJP and CPS agreed with our recommendation to ensure that CPS
      implements procedures to submit progress reports in a timely manner.

      In its response to the draft report, CPS stated that the CPS Project Team has
      implemented process changes to ensure all grant reporting is submitted
      on-time for future grants. This process includes ensuring that all Project
      Managers are properly trained on reporting requirements and deadlines.

      This recommendation can be closed when OJP provides the OIG with written
      documentation to support CPS’s process changes and evidence that training
      was provided to all Project Managers regarding the reporting requirements
      and deadlines.




                                      - 26 ­
